                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 113120061                                                                  Page 1 of 1



         OIG received an allegation 1 of misconduct committed by a
                     4
                                                                        Pe  on an NSF award 3 to an
         institution. The allegation concerned incidents that occurred over ten years ago, and the
         complainant provided no specific evidence. Due to the lack of evidence and passage of time, it
         is not practical to pursue this allegation.

         This case is closed with no further action taken.




         2
         3




NSF OIG Form 2 (11102)
